IN THE SUPREME COURT OF THE UNITED STATES
No. 20DAMIEN FREEMAN,
Petitioner,
v.

LYNEAL WAINWRIGHT,
Respondent.
CERTIFICATE OF SERVICE
I, Rishi R. Gupta, a member of the Bar of this Court, hereby certify that on
October 9, 2020, I caused three copies of the Petition for Writ of Certiorari in the
above-entitled case to be served by Federal Express on the following counsel of
record:
William H. Lamb
Assistant Attorney General
Office of the Attorney General of Ohio
441 Vine Street, Suite 1600
Cincinnati, Ohio 45202
William.Lamb@ohioattorneygeneral.gov
(513) 852-3497
Counsel for Respondent
I further certify that all parties required to be served have been served.

a i,-- ,,eep%-7.,Rishi R. Gupta
Covington & Burling LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
Counsel for Petitioner Damien, Freeman

